APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the United States Court of Appeals for
the Fourth Circuit (April 9, 2021).................... la
Memorandum Opinion and Order of the District
Court of Maryland (March 2, 2020)................. 3a
Memorandum Opinion and Order of the District
Court of Maryland (May 24, 2019)................. 31a
Letter Order Denying Plaintiff s Motion to
Reassign the case (April 15, 2019).......

44a

Letter Order of the District Court of Maryland
Providing Material Support to Respondents
(March 20, 2019)............................................... 48a
Letter Order Regarding the Filing of Motions
(January 29, 2019)........ .............................

54a

Other Documents
The Conference Call Hearing Transcript
(February 12, 2020).....................’......

56a

Petitioner’s Informal Briefing in the United
States Court of Appeals for the Fourth Circuit
(April 28, 2020)...... ........................................... 72a
Court-Returned Petitioner’s Pleading
(February 22, 2019)......................

175a

Petitioner’s Motion to Dismis SunTrust
Counterclaim (May 3, 2019) ............

177a

APPENDIX TABLE OF CONTENTS (Cont.)
Petitioner’s Motion to Remove Judge Grimm
From Petitioner’s Civil Cases
(April 5, 2019)..................................... ,........

224a

Petitioner’s Motion to Compel SunTrust to Accept
228a
TMCC’s Check (February 22, 2019)
Civil Action Complaint Against Toyota Motor
Credit Corporation and SunTrust Bank
235a
(December 31, 2018)
Social Security Administration Retirement,
Survivors and Disability Insurance
Notice of Award (December 23, 2019)...

289a

TMCC’s Two Pages Account History

291a

Petitioner’s Bank Statement July-June-MayApril-March and February 2018................

296a

Petitioner’s Bank Statement June 2017
To September 2017.................... .........

297a

Petitioner’s Bank Statement
June and May 2018........

299a

TMCC’s Letter to Repossess
Nissan Altima 2014..,:...

300a

TMCC’s Envelope Certified And Registered
Letter To Repossess...................................

306a

Mr. Hartlove’s Business Card Given to Petitioner
307a
By Mr. Hartlove

App.la
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT
(APRIL 9, 2021)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
EMMANUEL EDOKOBI,
Plain tiff-Appellan t,
v.
TOYOTA MOTOR CREDIT CORPORATION;
SUNTRUST BANK,
Defendants-Appellees.
No. 20-1243
Appeal from the United States District Court
for the District of Maryland, at Greenbelt.
Paul W. Grimm, District Judge.
(8:19-cv-00248-PWG)
Before: WYNN, THACKER, and
RUSHING, Circuit Judges.
PER CURIAM:
Emmanuel Edokobi appeals the district court’s
order granting the Defendants’ motions for summary
judgment and denying as moot his motion to dismiss
SunTrust Bank’s counterclaim. We have reviewed the
record and find no reversible error. Accordingly, we

App.2a
affirm for the reasons stated by the district court. Edokobi v. Toyota Motor Credit Corp., No. 8:19-cv-00248PWG (D. Md. Mar. 2, 2020). We dispense with oral
argument because the facts and legal contentions are
adequately presented in the materials before this
court and argument would not aid the decisional process.
AFFIRMED.

App.3a
MEMORANDUM OPINION AND ORDER OF THE
DISTRICT COURT OF MARYLAND
(MARCH 2, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
SOUTHERN DIVISION
EMMANUEL EDOKOBI
Plaintiff,
v.
TOYOTA MOTOR CREDIT CORP. ET AL.
Defendants.
Case No.: PWG-19-248
Before: Paul W. GRIMM,
United States District Judge.
Emmanuel Edokobi brought this suit against
Toyota Motor Credit Corporation and SunTrust Bank
regarding two contested payments of $536.34 from his
SunTrust bank account to his Toyota car loan that
resulted in overdraw charges. Before this suit began,
Toyota sent Edokobi a reimbursement check for $536.34
and SunTrust refunded the related overdraw fees for
the one charge he disputed, but Edokobi did not cash
the check because he wanted to sue for emotional and
punitive damage. As a result, Edokobi filed this action,
alleging 30 counts of breach of contract and common

App.4a

law and statutory duties and seeking a total of
$2,880,000 in damage. SunTrust filed a counterclaim
for breach of contract for Edokobi’s unpaid overdrawn
account balance. Pending before me are Defendants’
motions for summary judgment. 1 For the reasons ex­
plained below, summary judgment is granted in favor
of the Defendants against Edokobi on Edokobi’s claims,
and in favor of SunTrust against Edokobi on SunTrust’s
breach of contact claim.
I.

Background

The Court finds the following material and undis­
puted facts established by the record.
On May 21, 2012, Edokobi opened a deposit account
with SunTrust bank (the “SunTrust Account” or
“Account.”). ECF No. 65-3. At that time, Edokobi signed
the Personal Account Signature Card and thereby
agreed that his use of the Account “shall be governed
by the rules and regulations for this account.” Id. Edo­
kobi “acknowledge [d] receipt of such rules and regula­
tions and the funds availability policy” and that “the
funds availability policy has been explained.” Id.
The SunTrust Rules and Regulations for Deposit
Accounts (the “Rules and Regulations”) provide that
the relationship between Edokobi and SunTrust is
contractual in nature, that SunTrust “is not in any
way acting as a fiduciary to [Edokobi],” and that “no
1 The motions are fully briefed. See ECF Nos. 65, 66, 78, 82, 83.
A hearing is not necessary. See Loc. R. 105.6 (D. Md. 2018). Also
pending is Edokobi’s motion to dismiss SunTrust’s counterclaim.
ECF No. 39. Because I grant SunTrust’s motion for summary
judgment on their counterclaim, Edokobi’s motion to dismiss the
counterclaim is denied as moot.

App.5a

special relationship exists” between Edokobi and
SunTrust. ECF No. 65-4. The Rules, and Regulations
also provide that SunTrust “has no duty to investigate
or question items, withdrawals, or the application of
funds.” Id. Further, the Rules and Regulations contain
detailed provisions that explain SunTrust may charge
overdraft fees, that Edokobi will pay any fees applied
to his account that are included in the Personal
Deposit Fee Schedule, that it is Edokobi s responsibility
to monitor his account to ensure that sufficient funds
are available, and that he is liable for all amounts
charged to the account. Id. If there is a dispute about
any item debited from the account, the Rules and
Regulations require Edokobi to notify SunTrust within
60 days. Id. The Rules and Regulations also provide
that SunTrust may close the account without advanced
notice. Id.
In accordance with the Rules and Regulations,
SunTrust issued monthly account statements to Edo­
kobi and made the statements available for his review
electronically, at his selection. ECF No. 65-2 at f 5. At
various times when Edokobi used the account, he was
charged overdraft item fees when there were insuffi­
cient funds to cover debits and maintenance fees when
the average daily balance fell below the minimum
threshold to avoid a fee. Id. at
6, 7.
On October 24, 2015, Edokobi executed a Retail
Installment Sale Contract (“RISC”) to finance the
purchase of a 2014 Nissan Altima. See ECF No. 66-1'
The RISC was assigned to Toyota. Id. The RISC ex­
plained that the relationship between Edokobi and
Toyota was contractual in nature and provided that:
“This contract, along with all other documents signed
by you in connection with the purchase of this vehicle,

v

\

App.6a

comprise the entire agreement between you and us
affecting this purchase” and “You agree to the terms
of this contract.” Id. Under the terms of the RISC,
Edokobi was obligated to make monthly payments of
$268.17 to Toyota. Id. There was no penalty for pre­
payment. Id.

\

Edokobi made payments to Toyota pursuant to
the RISC in varying amounts from his SunTrust
Account. From January 26, 2016 to June 27, 2018,
thirty-eight separate electronic debits were transmitted
to Toyota from the Account for amounts including
$268.17, $100.00, $170.00, $266.00, $200.00, $138.85,
$180.00, $88.17, $536.34, $268.34, .$276.71, $227.80
and $268.00. See ECF No. 65-2 at If 9. The present
dispute concerns two payments for $536.34 that were
made using Toyota’s online payment system. ECF No.
66-4 at t 5. The online payment system is driven by
the account user, and Toyota only receives payments
through the online system that are authorized by the
user. Id. Toyota does not have access to a user’s online
account to initiate payments. Id.
On September 26, 2017, an electronic debit to
Toyota for $536.34 was charged to Edokobi’s account.
The payment was initiated using the Toyota online
payment system and Was received by Toyota. ECF No.
66-4 at If 5. The debit resulted in an overdraft fee. Id.
at t 7. Based on the SunTrust Rules and Regulations,
if Edokobi wanted to dispute this debit with SunTrust,
he was required to do so within 60 days of September
27, 2017, when SunTrust made the monthly account
statement available for Edokobi’s review. ECF No. 65-2
at ^f 10. Edokobi did not dispute the charge within that
time period.

\

App.7a

On June 27. 2018, an electronic debit to “Toyota
Pay” for 268.17 and an electronic debit to “Toyota
Financial” for $536.34 were charged to Edokobi’s
account. EOF Nos. 65-5; 78-1. The $536.34 payment
was initiated using the Toyota online payment system
and was received by Toyota. ECF No. 66-4 at If 5. Sun­
Trust processed the items, which resulted in an over­
draft balance and a $36.00 overdraft fee. ECF Nos. 655; 78-1.
On June 28, 2018, Edokobi submitted a written
statement to SunTrust disputing the $536.34 charge
from the previous day, alleging that he did not auth­
orize Toyota to debit the Account. ECF No. 65-6. On
July 3, 2018, Edokobi sent a follow up written state­
ment to SunTrust, again disputing the charge. ECF
No. 65-7.2
In light of Edokobi’s letters, SunTrust referred
the matter to its Fraud Assistance Center. After
reviewing the claim, SunTrust’s Fraud Assistance
Center informed Edokobi that it would not be
reimbursing the $536.34 electronic debit to Edokobi
because of Edokobi’s participation in undisputed
transactions with Toyota and its determination that
no error occurred. ECF No. 65-8. SunTrust also recom­
mended contacting Toyota to resolve fhe dispute. Id. In
response, on July 21, 2018 Edokobi sent SunTrust a
document titled “Legal Notice,” in which he again
demanded return of the $536.34 electronic debit and
2 Attached to this letter was a letter from Toyota dated June 28,
2018 that stated, “This letter is to confirm that you verbally auth­
orized a one-time ACH electronic bill payment to Toyota Motor
Credit Corp,on 06/26/2018 . . . [for] $268.17.” Id. This appears to
relate to the $268.17 payment to Toyota, that was posted on June
27, 2018, which is not disputed in this case.

'\

App.8a
threatened legal action if SunTrust did not do so. ECF
Nos. 65-9; 78-16.
Separately, on July 30, 2018, Toyota received a
request for reimbursement from Edokobi. ECF No. 664 If 11. Two days later, on August 1, 2018, Toyota
granted Edokobi’s request and sent him a check for
$536.34. Id. at If 12; ECF No. 78-18.
As of July 26, 2018, Edokobi had an overdrawn
balance of negative $512.19 as a result of the June 27,
2018 debits to Toyota and the resulting $36.00 over­
draft fee, other unrelated personal debits and an addi­
tional $36.00 overdraft fee related to those purchases,
and a monthly $10.00 account maintenance fee. ECF
Nos. 65-5; 78-1.
On August 14, 2018, SunTrust initiated a telephone
conference with a SunTrust representative, a Toyota
representative, and Edokobi to address the dispute.
During the call, Edokobi acknowledged that he received
the $536.34 refund check but said that he would not
deposit it because he wanted to sue for damage. See
ECF No. 65-2; 65-10; 78-17, 78-19. The SunTrust
representative’s summary of the call describes the ex­
change as follows:
[Mlerchant stated they have received corres­
pondence from the client concerning the two
payments and they have already issued the
client a refund check in the amount of $536.34
sent via fed-ex courier on 8/1/18. . . . [Mler­
chant ask[ed] have you not received it yet.
The Client said yes I have it and I am not
going to process it. Client said that he is
going to return the check to the merchant be­
cause he wantts] to sue Toyota for 5 million

\

App.9a
dollars in damage and suffering. Per client
told the merchant that he is taking them to
the supreme court and if [they] don’t believe
them to look up his name.
ECF No. 65-10.
Following the call, on August 15, 2018 SunTrust’s
Fraud Assistance Center sent Edokobi another letter
informing him that he did not provide any additional
details that would change the original decision in his
case, and that his claim for SunTrust to reimburse the
debit (for which he had already received a check from
Toyota) was again denied. ECF No. 65-11. Nonethe­
less, SunTrust refunded the two $36.00 overdraft fees
that were assessed following the June 27, 2018 debits.
ECF No. 65-12. SunTrust also applied a monthly
$10.00 maintenance fee to Edokobi’s account, resulting
in a negative balance of $450.19 as of August 28, 2018.
Id. On August 31, 2018, SunTrust closed Edokobi’s
account, with Edokobi owing the $450.19 balance. Ed­
okobi’s account statement showing the account closing
and negative balance of $450.19 was made available
for Edokobi’s review on September 25, 2018. Id:, ECF
No. 65-2 at If 20. Edokobi has not paid the $450.19
balance. ECF No. 65-2 at t 21; see also ECF Nos. 7815,78-26,78-27.
In sum, Toyota sent Edokobi a check for the
$536.34 debit he disputed and SunTrust reimbursed
Edokobi for the two overdraft charges related to the
debit. The reimbursement check would have resolved
the overdraw balance on Edokobi’s SunTrust account.
But Edokobi never deposited the check, and instead
filed this suit seeking $2,880,000 in damage. Edokobi
alleges 30 counts in his complaint, including breach of
contract, breach of fiduciary duty, unjust enrichment,

App.lOa
aiding and abetting, promissory estoppel, “malicious
acts of tampering,” civil conspiracy, “conspiracy to
negligence,” violations of the Maryland commercial
code, violations of the Maryland Consumer Protection
Act, and violations of the federal Fair Debt Collection
Practices Act. SunTrust filed a counterclaim for the
$450.19 balance on Edokobi’s account.
Edokobi’s suit has consumed a significant amount
of the parties’ and judicial resources. Since the time it
was assigned to me, Edokobi filed an interlocutory
appeal to the Fourth Circuit, which was later voluntarily
dismissed, see ECF No. 27; filed a suit against me in
state court, which was removed to this Court and is
pending before Judge Hazel, see Edokobi v. Grimm,
GJH-19-cv-905 (D. Md.); filed a motion to remove me
from this case and sent it to Chief Judge Bredar, who
took no action on it, and which I then denied, see ECF
Nos. 33, 34; filed a motion for reconsideration of mj^
decision not recuse myself, which was denied, see ECF
No. 42; filed a motion to reopen discovery to hire an
independent computer forensic experts, which Magis­
trate Judge Simms denied, see ECF No. 84; filed an
interlocutory appeal to the Fourth Circuit of Magis­
trate Judge Simms’ decision, which was voluntarily
dismissed, see ECF No. 91; and filed a motion for leave
to submit the sworn affidavits of Toyota and SunTrust
employees to the Federal Bureau of Investigation for
criminal prosecution for allegedly committing perjury,
which was granted on the basis that this Court has no
involvement for this type of request, see ECF No. 84.
With the assistance of Magistrate Judge Simms, dis­
covery has now closed. Pending before me are Defend­
ants’ motions for summary judgment.

\

\

\

App.lla

II.

Standard of Review

Summary judgment is proper when the moving
party demonstrates, through “particular parts of.
materials in the record, including depositions, docu­
ments, electronically stored information, affidavits or
declarations, stipulations ..., admissions, interrogatory
answers, or other materials,” that “there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a), (c)(1)(A); see Baldwin v. City of Greensboro,
714 F.3d 828, 833 (4th Cir. 2013). If the party seeking
summary judgment demonstrates that there is no evi­
dence to support the nonmoving party’s case, the
burden shifts to the nonmoving party to identify evi­
dence that shows that a genuine dispute exists as to
material facts. See Celotex v. Catrett, All U.S. 317
(1986). The existence of only a “scintilla of evidence” is
not enough to defeat a motion for summary judgment.
Anderson v. Liberty Lobby, Inc., 411 U.S. 242, 251-52
(1986). Instead, the evidentiary materials submitted
must show facts from which the finder of fact reason­
ably could find for the party opposing summary judg­
ment. Id. If this initial burden is met, the opposing
party may not rest on the mere allegations in the com­
plaint. Id. at 247-48. The opposing party “must come
forward with specific facts showing that there is, a
genuine issue for trial.” Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 587 (1986). Where
the record taken as a whole could not lead a rational
trier of fact to find for the non-moving party, summary
judgment is appropriate. Anderson, 477 U.S. at 24849. On a motion for summary judgment, the facts are
considered in the fight most favorable to the non-moving

\

's

\

App.l2a

\

party, drawing all justifiable inferences in his favor.
Ricci v. DeStefano, 557 U.S. 557, 585-86 (2009).
Because Plaintiff is self-represented, his submis­
sions are liberally construed. See Erickson v. Pardus,
551 U.S. 89, 94 (2007); Fed. R. Civ. P. 8(£) (“All plead­
ings shall be so construed as to do substantial justice”);
Haines v. Kerner, 404 U.S. 519, 520 (1972) (claims of
self-represented litigants are held “to less stringent
standards than formal pleadings drafted by lawyers”).
III. Analysis
In his 30-count complaint, Edokobi included some
claims against Toyota and SunTrust individually and
some claims against both. SunTrust filed its counter­
claim against Edokobi. I discuss each in turn.

\

a. Breach of Contract
In Counts 1 through 7 and 22 of the Complaint,
Edokobi alleges breach of contract by Toyota for the
$536.34 debits on September 26, 2017 and June 27,
2018. Essentially Edokobi alleges that Toyota “took”
the payments without his authorization and failed to
account for all payments. In Maryland, “[t]he elements
of a claim for breach of contract include ‘contractual
obligation, breach, and damage.’” Thicker v. Specialized
Loan Servicing, LLC, 83 F. Supp. 3d 635, 655 (D. Md.
2015) (quoting Kumar v. Dhanda, 17 A.3d 744, 749
(Md. Ct. Spec. App. 2011)). Edokobi fails to provide
any facts to support his claim for breach of contract.
As described above, the relationship between
Edokobi and Toyota is contractual in nature and
governed by the RISC. The RISC provides that Edo­
kobi is obligated to make monthly payments of

\

App.l3a
$268.17, but may make additional payments-without____
penalty. Although Edokobi alleges that Toyota “took”
the payments, he provides not factual support for this
contention. The record shows that the two $536.34 pay­
ments in question were initiated from Edokobi’s
online account that required Edokobi’s authentication
to be made. ECF No. 66-4 at tlf 5-7. Toyota lacks the
ability to initiate online payments on behalf of Edokobi.
Id. at 7. And in either case all payments that were
made were either credited to Edokobi’s account or
returned to Edokobi at his request. Id. at 13; ECF
No. 66-3. Therefore Edokobi fails to establish that
Toyota breached the contractual obligations in the
RISC. Summary judgment is granted in favor of
Toyota on these counts.
b. Breach of Fiduciary Duty
In Counts 8 and 9 of the Complaint, Edokobi
asserts claims against SunTrust for breach of fiduciary
duty. ECF No. 2 at f Tf 108-21. Edokobi asserts that by
operating a bank account with SunTrust, it owed him
a fiduciary duty. Id. at
110, 124. Edokobi alleges
that SunTrust breached that alleged duty by failing to
notify him of the $536.34 payments in September
2017 and June 2018. Id. at H 111, 118.
The record establishes that SunTrust did not owe
a fiduciary duty to Edokobi. The relationship between
SunTrust and Edokobi was contractual in nature. The
Rules and Regulations regarding that contractual rela­
tionship specifically state that SunTrust “is not in any
way acting as a fiduciary to [Edokobi],” and that “no
special relationship exists” between Edokobi and
SunTrust. ECF No. 65-4. The Rules and Regulations
also provide that SunTrust “has no duty to investigate

\

\

App.l4a

or question items, withdrawals, or the application of
funds.” Id. And there are no special circumstances
that would warrant the establishment of a duty here.
See Parker v. Columbia Bank, 604 A:2d 521, 532 (Md.
Ct. Spec. App. 1992) (“Courts have been exceedingly
reluctant to find special circumstances sufficient to
transform an ordinary contractual relationship between
a bank and its customer into a fiduciary relationship
or to impose any duties on the bank not found in the
loan agreement.”) Therefore SunTrust is entitled to
summary judgment on these claims.

\

c. Unjust Enrichment
In Counts 10 and 11 of the Complaint, Edokobi
asserts claims against SunTrust for unjust enrichment.
ECF No. 2 at ^ 122-27. In Maryland, a claim for
unjust enrichment requires three elements:
1.

A benefit conferred upon the defendant by
the plaintiff;

2.

An appreciation or knowledge by the defend­
ant of the benefit; and

3.

The acceptance or retention by the defendant
of the benefit under such circumstances as to
make it inequitable for the defendant to
retain the benefit without the payment of its
value.

Hill v. Cross Country Settlements, LLC, 936 A.2d
343, 351 (2007). The purpose of this type of claim “is
not aimed at compensating the plaintiff, but at forcing
the defendant to disgorge benefits that it would be
unjust for him to keep.’” Id. (quoting Mass Transit
Admin, v. Granite Const. Co., 471 A.2d 1121, 1126
(1984)) (alterations in original). Edokobi alleges that

\

App.l5a
SunTrust enriched itself by failing to return the
$536.34 that Toyota “took” from his Account in Sep­
tember 2017 and June 2018 and by failing to return the
overdraft charges that resulted from each debit.
The record demonstrates that SunTrust was not
unjustly enriched. To begin, no benefit was conferred
upon SunTrust for processing the $536.34 payments
on behalf of Toyota. Those payments were applied to
Edokobi’s account or reimbursed to Edokobi, and no
part of those funds was retained by SunTrust. ECF
No. 66-3. For the overdraw charges that resulted from
the September 2017 debit, Edokobi failed to contest
the charges within the 60-day period required by the
Rules and Regulations. For the June 2018 charges,
SunTrust eventually refunded the two $36.00 overdraft
fees. ECF No. 65-12. And in any case, Edokobi has not
provided any facts that would establish the retention
of those overdraft fees in accordance with the Rules
and Regulations would be unjust. Therefore SunTrust
is entitled to summary judgment on these claims.
d. Aiding and Abetting
In Counts 12 and 13 of the Complaint, Edokobi
asserts claims against SunTrust for aiding and
abetting. ECF No. 2 at
134-43. In Maryland, to
establish aiding and abetting liability, the plaintiff
must establish underlying tortious conduct. See Alleco
Inc. v. Harry & Jeanette Weinberg Found., Inc., 665
A.2d 1038, 1050 (1995) (“[Cjivil aider and abettor
liability, somewhat like civil conspiracy, requires that
there exist underlying tortious activity in order for the
alleged aider and abettor to be held liable.”). As the
basis for his claim, Edokobi alleges that SunTrust
owed a fiduciary duty to him and that SunTrust aided

App.l6a

and abetted Toyota taking the $536.34 payments from___
his Account in September 2017 and June 2018.
As explained above, the record establishes that
SunTrust did not owe a fiduciary duty Edokobi. Further,
as discussed herein, Edokobi has not provided facts to
establish liability on any of his 30 alleged counts or
any other theory of tortious conduct. Thus there is no
underlying tortious conduct on which aiding and
abetting liability can be premised. Therefore SunTrust
is entitled to summary judgment on these claims.

\

e. Maryland Credit Grantor Closed End Credit
Provisions
In Counts 14, 15, and 21 of the Complaint, Edo­
kobi alleges Toyota violated the Credit Grantor Closed.
End Credit Provisions of the Maryland Commercial
Code, §§ 12-1001, et seq. (“CLEC”). The CLEC contains statutory protections for creditors and borrow­
ers regarding the terms of their contractual relation­
ship, including with respect to interest rates, charges,
and other fees. See generally, Md. Code, Com. Law,
§§ 12-1001, et seq.
In Count 14, Edokobi alleges that To}?ota violated
CLEC § 12-100l(i). ECF No. 2 at f f 144-52. That section
provides the definition of an installment loan, and
states “‘Installment loan’ means a loan repayable in
scheduled periodic payments of principal and interest.”
Md. Code, Com. Law, § 12-100l(i). In Count 15, Edokobi
alleges that Toyota violated CLEC § 12-1001(e)(1).
ECF No. 2 at ff 152-60. That section is part of the
definition of a commercial loan, and states in full: “(e)
‘Commercial loan’ and ‘extensioii of credit for a com­
mercial purpose’ mean an extension of credit made: (l)

J

App.lTa
Solely to acquire an interest in or to carry on a busi­
ness or commercial enterprise; or (2) To any business
or commercial organization.” Md. Code Com. Law § 121001(e)(1). And in Count 21, Edokobi alleges that
Toyota violated CLEC § 12-1018(A)(2). ECF No. 202OS. That section provides remedies for violations of the
CLEC, and states, “Except for a bona fide error of
computation, if a credit grantor violates any provision
of this subtitle the credit grantor may collect only the
principal amount of the loan and may not collect any
interest, costs, fees, or other charges with respect to
the loan.” Md. Code, Com. Law § 12-1018. As the basis
for each of these counts, Edokobi asserts that Toyota
“took” the $536.34 payments without his authorization
and did not pay the SunTrust overdraw charges.
To begin, Edokobi cites two definitions and a
remedies provision of the CLEC; he does not cite any
actual violations of the CLEC. But to the extent the
Complaint can be construed to state a violation of the
CLEC because the $536.34 payments were not
“scheduled periodic payments,” or that Toyota was
somehow obligated to pay the SunTrust overdraft
fees, Edokobi fails to provide any facts to support his
claim. As explained above;, pursuant to the RISC Edo­
kobi can make payments above $268.17 with no pre­
payment penalty. The record shows that Toyota did
not “take” the payments as they must be initiated and
authorized by the online account user. And Edokobi
provides no facts to support the contention that Toyota
is obligated to pay the SunTrust overdraft fees.
Therefore Toyota is entitled to summary judgment on
these claims.

1

App.l8a

_

_ £ Fair Debt Collection Practices Act

In Counts 16 and 17 of the Complaint, Edokobi
asserts claims against Toyota and SunTrust for viola­
tions § 1692f and § 1692e of the Fair Debt Collection
Practices Act (“FDCPA”), 15 U.S.C. § 1692, et seq.
ECF No. 2 at ft 161-75. Section 1692e prohibits a “debt
collector” from using “any false, deceptive, or
misleading representation or means in connection
with the collection of any debt.” 15 U.S.C.. § 1692e.
Similarly, § 1692f prohibits a “debt collector” from
using “unfair or unconscionable means to collect or
attempt to collect any debt.” 15 U.S.C. § 1692f. Edokobi
alleges that Toyota and SunTrust violated these
sections by “taking” $536.34 from his Account in Sep­
tember 2017 and June 2018.
“To succeed on a FDCPA claim a. plaintiff must
demonstrate that (l) the plaintiff has been the object
of collection activity arising from consumer debt, (2)
the defendant is a debt 0 collector as defined by the
FDCPA, and (3) the defendant has engaged in an act
or omission prohibited by the FDCPA.” Stewart v.
Bierman, 859 F. Supp. 2d 754, 759 (D. Md. 2012), affd
sub now. Lembach v. Bierman, 528 F. App’x 297 (4th
Cir. 2013) (internal quotation marks and citation
omitted). The FDCPA defines a “debt collector” as “any
person who uses any instrumentality of interstate
commerce or the mails in any business the principal
purpose of which is the collection of any debts, or who
regularly collects or attempts to collect, directly or
indirectly, debts owed or due or asserted to be owed or
due another.” 15 U.S.C. § 1692a(6).
SunTrust is not a debt collector as defined by the
FDCPA. Instead, its role here is simply that of
processing electronic debits. Its activity in this regard

\

I

App.l9a

is covered separately by the Rules and Regulations
and its duties under the Electronic Funds Transfer
Act, 15 U.S.C. §§ 1693-1693r, its implementing regu­
lation, 12 C.F.R. § 1005.lr1005.20, and other rules and
guidelines including the Operating Rules and Guide­
lines of the National Automated Clearing House Asso­
ciation. Moreover, Edokobi presents no facts that
indicate SunTrust’s conduct violated the FDCPA.
Toyota argues that it too is not a debt collector as
defined by the FDCPA, that the collection of the pay­
ments pursuant to the RISC is not a debt collection
activity, and that in any case it did not engage in an
act or omission prohibited by the FDCPA. Setting
aside whether the collection of payments under the
RISC qualifies as a debt collection activity or makes
Toyota a debt collector, Edokobi has provided no facts
to establish that Toyota engaged in.“false, deceptive,
or misleading representations” or “unfair and uncon­
scionable means” to collect the payments. The record
establishes that the payments were made using Ed­
okobi’s online account and that Toyota does not have
access to the account to initiate payments in this way.
ECF No. 66-4 at TfH 5-7. Moreover, when Edokobi dis­
puted the June 2018 charge with Toyota, Toyota
reimbursed him within two days. Id. at
11-12.
Therefore Toyota and SunTrust are entitled to sum­
mary judgment on these claims.

\

g. Maryland Consumer Protection Act
In Counts 18, 19, and 23 of the Complaint, Edo­
kobi asserts claims against Toyota and SunTrust for
violations of Sections 13-301 and 13-302 of the Mary­
land Consumer Protection Act (“CPA”), Md. Code
Com. Law § 13-101, et seq. ECF No. 2 at fK 176-92,

\

\

App.20a
215-22. Section 13-301 prohibits “[ulnfair, abusive, or
deceptive trade practices.” Md. Code, Com. Law § 13301. Section 13-302 states, “Any practice prohibited by
this title is a violation of this title, whether or not any
consumer in fact has been misled, deceived, or
damaged as a result of that practice.” Id. § 13-302.
Edokobi alleges that Toyota and SunTrust violated
these provisions by allowing the withdrawal and
“taking” of the $536.34 payments in September 2017
and June 2018.
As discussed above, the record shows that the
$536.34 payments in question were initiated from Edokobi’s online Toyota account that required Edokobi’s
authentication to be made. ECF No. 66-4 at t1f 5-7.
Toyota lacks the ability to initiate online payments on
behalf of Edokobi. Id. at 7. And in either case, all pay­
ments that were made were either credited to Edokobi’s
account or returned to Edokobi at his request. ECF
No. 66-3. Edokobi failed to dispute the September
2017 charges within the 60-day period required by the
Rules and Regulations. For the June 2018 charges,
SunTrust refunded the two $36.00 overdraft fees. ECF
No. 65-12. Edokobi has not presented any facts that
establish SunTrust and Toyota engaged in “[ujnfair,
abusive, or deceptive trade practices” or committed
any other violation of the CPA. Therefore Toyota and
SunTrust are entitled to summary judgment on these
claims.
h. Maryland Confidential Records Act
In Count 20 of the Complaint, Edokobi asserts a
claim against SunTrust for violating § 1-302 the
Maryland Confidential Records Act (“MCFRA”), Md.
Code, Fin. Inst. § 1-30L et seq.ECF No. 2 at Tf[j 193-

App.21a

201. Section 1-302 of the MCFRA prohibits a financial
institution from disclosing the financial records of one
of its customers to any person, unless an exception
applies. One such exception is when “[t]he customer
has authorized the disclosure to that person.” Md.
Code, Fin. Inst. § 1-302. Edokobi alleges that SunTrust
violated this provision by disclosing his bank account
to Toyota, which allowed Toyota to “take” the Septem­
ber 2017 and June 2018 payments of $536.34 without
his authorization.
The record demonstrates that Edokobi gave Sun­
Trust authorization to disclose his Account informa­
tion to Toyota. Under the Rules and Regulations, the
parties agreed that “[SunTrust] will disclose informa­
tion to a third party about your Account or your
[electronic] transfers . . . when it is necessary to
complete transfers. ...” ECF No. 65-4. It is undis­
puted that Edokobi used his Account to make pay­
ments to Toyota for his car loan. Edokobi presents no
facts that demonstrate that SunTrust failed to follow
the terms of their contract. Therefore SunTrust is
entitled to summary judgment on this claim.
i. Promissory Estoppel
In Count 24 of the Complaint, Edokobi asserts
claims against Toyota and SunTrust for promissory
estoppel. ECF No. 2 at
223-37. In Pavel Enterprises,
Inc. v. A.S. Johnson Co., 674 A.2d 521, 532 (Md. 1996),
the Maryland Court of Appeals adopted a four-part
test to evaluate promissory estoppel claims:
1.

a clear and definite promise;

\

App.22a

2.

where the promisor has a reasonable ex­
pectation that the offer will induce action or
forbearance on the part of the promisee;

3.

which does induce actual and reasonable
action or forbearance by the promisee; and

4.

causes a detriment which can only be avoided
by the enforcement of the promise.

Id.
Edokobi alleges that SunTrust made him a
promise to protect his money and that Toyota made
him a promise to provide correct and fair accounting
services, and that he relied on these promises to his
detriment. However, the record establishes that the
“promises” that were made to Edokobi were contractual
in nature and governed by the Rules and Regulations
and terms of the RISC for SunTrust and Toyota
respectively. The Rules and Regulations specifically
provided that SunTrust “has no duty to investigate or
question items, withdrawals, or the application of
funds.” ECF No. 65-4. Edokobi provides no facts to
support a claim that SunTrust made a promise to
treat his Account in any other way than that provided
by the Rules and Regulations. And with respect to
Toyota, Edokobi provides no facts to support a claim
that Toyota’s accounting of Edokobi’s account is inac­
curate. See ECF No. 66-3. Nor does Edokobi alleges
facts to support the claim the Toyota breached the
terms of the RISC or any other promise. Therefore
Toyota and Suntrust are entitled to summary judgment
on these claims.

\

App.23a
j. “Malicious Acts of Tampering*’
In Counts 25 and 26 of the Complaint, Edokobi
asserts claims against SunTrust for “malicious acts of
tampering.” ECF No. 2 at 1f1I 238-43. Edokobi bases
this cause of action on SunTrust closing his Account.
“Mahcious acts of tamperin g” does not exist as a cause
of action under Maryland law. In any case, the Rules
and Regulations provide that SunTrust may close the
Account without advanced notice. ECF No. 65-4. Edo­
kobi presents no facts that demonstrate SunTrust
closing his account was malicious or was otherwise a
violation of the Rules and Regulations. Therefore Sun­
Trust is entitled to summary judgment on these
claims.

\

k. Civil Conspiracy
In Counts 27 and 28 of the Complaint, Edokobi
.asserts claims against Toyota and SunTrust for civil
conspiracy. ECF No. 2 at 1U 250-62. “In Maryland,
‘conspiracy’ is not a separate tort capable of indepen­
dently sustaining an award of damage in the absence
of other tortious injury to the plaintiff.” Capital
Lighting & Supply, LLC v. Wirtz, No. JKB-17-3765,
2018 WL 3970469, at *15 (D. Md. Aug. 20, 2018)
(quoting Lloyd v. Gen. Motors Corp., 916 A.2d 257, 284
(Md. 2007) (internal quotation marks omitted, empha­
sis in original). Edokobi alleges that-Toyota and Sun­
Trust conspired against him to withdraw the $536.34
payments from his account. However, Edokobi has not
provided any facts that demonstrate Toyota and Sun­
Trust tortiously injured Edokobi or otherwise con­
spired against him. Therefore Toyota and SunTrust are
entitled to summary judgment on these claims.

\

App.24a
1. “Conspiracy to Negligence”
In Count 29 of the Complaint,’ Edokobi asserts
claims against Toyota and SunTrust for “conspiracy to
negligence.” ECF No. 2 at
263-68. Edokobi alleges
that Toyota and SunTrust committed “conspiracy to
negligence” because they knew that Edokobi had
made a payment to Toyota of $268.17 on June 27,
2018, and therefore never should have “taken” the
payment of $536.34 on the same day.
“Conspiracy to negligence” is not a cause of action
in Maryland. To the extent that Edokobi alleges con­
spiracy regarding a tortious injury committed by
Toyota and SunTrust, these claims fail for the reasons
discussed above for the civil conspiracy claims in
Counts 27 and 28. To the extent that Edokobi alleges
negligence, Edokobi has not provided any facts that
would establish SunTrust or Toyota owed him a duty
other than those found in the contractual terms of
their agreements or that they breached those duties.
Therefore Toyota and SunTrust are-entitled to sum­
mary judgment on these claims.
m. Intentional Infliction of Emotional Distress
In Count 30 of the Complaint, Edokobi asserts
claims against Toyota and SunTrust for intentional
infliction of emotional distress. ECF No. 2 at
26368. In Maryland, an intentional infliction of emotional
distress claim requires the plaintiff to prove facts
showing:
(1) the conduct in question was intentional or
reckless; (2) the conduct was extreme and
outrageous; (3) there was a causal connection

App.25a

between the conduct and the emotional dis­
tress; and (4) the emotional distress was
severe.
Arbabi v. Fred Meyers, Inc., 205 F. Supp. 2d 462, 46566 (D. Md. 2002) (citing Harris v. Jones, 380 A.2d 611,
614 (Md. 1977). ‘“Maryland courts have cautioned that
the tort of intentional infliction of emotional distress
should be imposed sparingly, and its balm reserved for
those wounds that are truly severe and incapable of
healing themselves.’” Id. (quoting Figueiredo- Torres
v. Nickel, 584 A.2d 69, 75 (Md. 1991) (internal quota­
tion marks omitted, citations omitted in original).
Edokobi alleges that Toyota and SunTrust inten­
tionally inflicted emotional distress on him by
allowing Toyota to “take” $536.34 from his Account
without authorization. Edokobi also states that he
“lives on limited income whereby every dim in Plaintiffs
Bank Account matters a lot to Plaintiff.” ECF No. 2 at
t 271. While the Court recognizes that Edokobi feels
aggrieved in this case, he does not provide facts to sup­
port a claim for intentional infliction of emotional dis­
tress. The record establishes that the $536.34 payments
in question were initiated from Edokobi’s online
Toyota account that required Edokobi’s authentication
to be made and that Toyota lacks the ability to initiate
online payments on his behalf. ECF No. 66-4 at
57. And in any event, all payments that were made
were either credited to Edokobi’s account or returned
to Edokobi at his request. ECF No, 66-3. As to the
SunTrust overdraw charges, Edokobi did not contest
the charges that resulted from the September 2017
debit within the 60-day period required by the Rules
and Regulations and SunTrust eventually refunded
the two $36.00 overdraft fees. ECF No. 65-12. At a

• i

App.26a

minimum, Edokobi fails to provide facts to establish
that this conduct was “intentional or reckless” or
“extreme and outrageous.” Arbabi v. Fred Meyers,
Inc., 205 F. Supp. at 465-66. Therefore Toyota and
SunTrust are entitled to summary judgment on these
claims.
n. SunTrust’8 Counterclaim for Breach of Contract

-\

SunTrust filed a counterclaim for breach of contract
based on the $450.19 outstanding overdraft balance on
Edokobi s Account. ECF No. 15. The parties addressed
this claim in their summary judgment briefing and it
is ripe for review.
As discussed above, the relationship between
Edokobi and SunTrust is contractual in nature and
governed by the Personal Account Signature Card,
ECF No. 65-3, and the Rules and Regulations, ECF
No. 65-4. The Rules and Regulations provide that
“[y]ou agree to not overdraw or attempt to overdraw
your Account and to ensure that there are sufficient
available funds in your Account in advance to cover all
debits, holds and other items that are charged to your
Account.” ECF No. 65-4. If there is an item that would
cause an overdraft, the Rules and Regulations state,
“we may honor the check or other item and create an
overdraft.” Id. (emphasis in original). Further, the Rules
and Regulations provide that “[y]ou agree to deposit
sufficient funds to cover any overdraft and any penal­
ties assessed immediately upon notice of any over­
draft, and to reimburse us for any costs, including but
not limited to reasonable attorney’s fees, we incur in
collecting any overdraft from you.” Id.
The record shows that as a result of the debits to
Toyota of $268.17 and $536.34 on June 27, 2018, a

\

App.27a
$36.00 overdraft item fee, a $10.00 monthly mainte­
nance fee, other unrelated personal debits and a
resulting $36.00 extended overdraft item fee, Edokobi’s
Account had a balance of negative $512.19 as of July
26, 2018. ECF Nos. 65-5; 78-1. Edokobi was issued a
reimbursement check from Toyota for $536.34 on
August 1, 2018. ECF Nos. 66-4 Tf 12; 78-18. This would
have resolved the negative balance in his SunTrust
Account, but Edokobi did not deposit the check be­
cause he wanted to sue for damage. See ECF Nos. 652, 65-10, 78-17, 78-19.

-v

On August 14, 2018, following the telephone con­
ference with Edokobi and Toyota, SunTrust refunded
Edokobi the two $36.00 overdraft fees that were
assessed following the June 27, 2018 debits. ECF No.
65-12. SunTrust applied a monthly $10.00 mainte­
nance fee to Edokobi’s account on August 28, 2018. Id.
This resulted in a negative balance, of $450.19 when
SunTrust closed the account on August 31, 2019. Id.
Edokobi’s account statement showing the account
closing and negative balance of $450.19 was available
for Edokobi’s review on September 25, 2018. Id.; ECF
No. 65-2. Edokobi has not paid the $450.19 balance.
ECF No. 65-2.
In sum, the record shows that Edokobi was con­
tractually obligated to deposit sufficient funds to cover
any overdraft and associated fees and that Edokobi
has a $450.19 balance of overdraft items and fees that
he has not paid. Therefore SunTrust is entitled to a
judgment of $450.19 on its breach of contract counter­
claim.

\

App.28a

o. Award of Costs
SunTrust moves for its costs. ECF No. 65-1 at 23.
Toyota does not specifically request costs, but asks for
“any further relief deemed necessary and appropriate
by this Court.” ECF No. 66 at 2. Federal Rule of Civil
Procedure 54(d)(1) provides, “Unless a federal statute,
these rules, or a court order provides otherwise, costs
- other than attorney’s fees - should be allowed to the
prevailing party.” As I have previously stated, “The rule
makes clear that, in the ordinary course, a prevailing
party is entitled to an award of costs.” Levy v. Saint
Gobain Ceramiques Avancees Desmarquest, No.
PWG-04-492, 2006 WL 8456786, at *1 (D. Md. Oct. 16,
2006) (citing Constantino v. American S/T Achilles,
580 F.2d 121, 123 (4th Cir. 1978); Cherry v. Champion
Int’l Corp., 186 F.3d 442, 446 (4th Cir. 1999); Delta Air
Lines, Inc. v. August, 450 U.S. 346, 352 (1981); Teague
v. Bakker, 35 F.3d 978, 995-96 (4th Cir. 1994)).

\

For the reasons discussed above, Toyota and Sun­
Trust are the prevailing parties on all of Edokobi’s
claims and SunTrust is the prevailing party on its
counterclaim. Therefore costs, but not attorneys’ fees,
will be awarded to Toyota and SunTrust. In accordance
with 28 U.S.C. § 1920, these costs may include:
(1) Fees of the clerk and marshal;
(2) Fees for printed or electronically recorded
transcripts necessarily obtained for use in
the case;
(3) Fees and disbursements for printing and. wit­
nesses;
(4) Fees for exemplification and the costs of
making copies of any materials where the

\

App.29a
copies are necessarily obtained for use in the
case;
(5) Docket fees under section 1923 of this title;
(6) Compensation of court appointed experts,
compensation of interpreters, and salaries,
fees, expenses, and costs of special inter­
pretation services under section 1828 of this
title.

\

28 U.S.C. § 1920. Toyota and SunTrust will each sub­
mit a bill of costs pursuant to 28 U.S.C. § 1920 for the
Court’s review and, upon approval, inclusion in the
Judgment against Edokobi.
IV. Conclusion
In sum, Toyota and SunTrust are entitled to sum­
mary judgment on all 30 of Edokobi s claims. SunTrust
is entitled to summary judgment on its breach of con­
tract counterclaim against Edokobi in the amount of
$450.19. Toyota and SunTrust are awarded their costs
upon review by the Court.
ORDER
■

For the reasons stated above, it is, this 2nd day of
March, 2020, hereby ORDERED that:
1.

SunTrust’s Motion for Summary Judgment,
ECF No. 65, is GRANTED in favor of SunTrust
and against Edokobi;

2.

Edokobi’s claims against SunTrust are DIS­
MISSED WITH PREJUDICE;

3.

Judgment against Edokobi in favor of Sun­
Trust is GRANTED on SunTrust’s counter­
claim. SunTrust is awarded $450.19;

\

App.30a
4.

Edokobi’s motion to dismiss SunTrust’s coun­
terclaim, ECF No. 39, is DENIED as moot;

5.

Toyota’s Motion for Summary Judgment, ECF
No. 66, is GRANTED in favor of Toyota and
against Edokobi;

6.

Edokobi’s claims against Toyota are DIS­
MISSED WITH PREJUDICE;

7.

Toyota and SunTrust are AWARDED their
reasonable costs; each is directed to file a bill
of costs for the Court’s review and approval;

8.

The CLERK is directed to CLOSE this case;

9.

The CLERK will send a copy of this Memo­
randum Opinion and Order to Plaintiff and
coimsel for Defendants. ,

\

\

/s/
Paul W. Grimm
United States District Judge

s.

App.31a
MEMORANDUM OPINION AND ORDER OF THE
DISTRICT COURT OF MARYLAND
(MAY 24, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
SOUTHERN DIVISION
\

EMMANUEL EDOKOBI,
Plaintiff,
v.
TOYOTA MOTOR CREDIT CORP. ET AL.,
Defendants.
Case No.: PWG-19-248
Before: Paul W. GRIMM,
United States District Judge.
Plaintiff Emmanuel Edokobi has filed a motion
demanding that I reconsider my decision denying his
request to reply to Defendants’ amended answers.
Mot. for Recons., ECF No. 38. His motion—which
warns that he will file additional civil cases against
me, should I decline to grant the relief he seeks—
asserts that my April 23, 2019 decision violated his
constitutional rights and proved once more that I am
biased against him. See id. at 2.

\

App.32a

A.
There are several points I intend to make in this
Order, and I will begin with one I already have made
twice before. See Mar. 20, 2019 Ltr. Order, ECF No.
29: Apr. 23, 2019 Ltr. Order, ECF No. 37. To put it as
simply as possible, this Court has a pre-motion proce­
dure that is followed in all cases assigned to me. The
central directive, which Mr. Edokobi repeatedly has
ignored, is as follows: “Any party wishing to file a
motion first will serve on all parties and file with the
Court a letter (not to exceed three pages, single spaced)
containing a brief description of the planned motion
and a concise summary of the factual and legal sup­
port for it.” ECF No. 6. This procedure serves several
functions. In particular, as the letter order estab­
lishing the procedure explains, it gives me the oppor­
tunity “to schedule an expedited telephone conference
(usually within a week) to discuss the requested
motion and to determine whether the issues may be
resolved or otherwise addressed without the need for
formal briefing.” Id. Mr. Edokobi, in filing his motion
for reconsideration, once again has failed to comply
with the procedure—despite a warning that his con­
tinued noncompliance “may subject him to sanctions
for contempt.” Apr. 23, 2019 Ltr. Order. If Mr. Edokobi
continues to disregard the orders of this Court regard­
ing procedures that must be followed, any filing of his
that violates such orders will be stricken from the
docket.

\

B.
I will address next the substance of Mr. Edokobi’s
motion for reconsideration. Rule 54(b) of the Federal
Rules of Civil Procedure governs motions to reconsider

s

App.33a

an interlocutory order. See Fed. R. Civ. P. 54(b) (pro­
viding that interlocutory orders “may be revised at
any time before the entry of a judgment adjudicating all
the claims and all the parties’ rights and liabilities”). The
Fourth Circuit has not stated a standard for review of
a Rule 54(b) motion, but it has said that, “generally at
least, a review of an interlocutory order under Rule 54
is not subject to the restrictive standards of motions for
reconsideration of final judgments under Rule 60.”
Fayetteville Inv’rs v. Commercial Builders, Inc., 936
F.2d 1462,1472 (4th Cir. 1991); see also Am. Canoe Ass’n
v. Murphy Farms, Inc., 326 F.3d 505, 514 (4th Cir.
2003). Nor is the standard for Rule 59(e) binding on
review under Rule 54. See Am. Canoe Ass’n, 326 F.3d
at 514; Cezair v. JPMorgan Chase Bank, NA., No. DKC13-2928, 2014 WL 4955535, at *1 (D. Md. Sept. 30,
2014). Nonetheless, “courts frequently look to these
standards for guidance in considering such motions.”
Cezair, 2014 WL 4955535, at * 1; see also Peters v. City
ofMt. Rainier, No. GJH-1 4-955, 2014. WL 4855032, at
*3 n.l (D. Md. Sept. 29, 2014) (looking to Rule 60(b)
standard); Harper v. Anchor Packing Co., No. GLR12-460, 2014 WL 3828387, at *1 (D. Md. Aug. 1, 2014)
(looking to Rule 59(e) standard).
A Rule 59(e) motion “need not be granted unless
the district court finds that there has been an inter­
vening change of controlling law, that new evidence
has become available, or that there is a need to correct
a clear error [of law] or prevent manifest injustice.”
Robinson v. Wix Filtration Corp. LLC, 599 F.3d 403,
411 (4th Cir. 2010); see also Mayfield v. Nat’l Ass’n for
Stock Car Auto Racing, Inc., 674 F:3d 369, 378 (4th
Cir. 2012). Rule 60(b) provides overlapping, but broader,
bases for relief from a court order, including that there

\

\

App.34a

has been “mistake, inadvertence, surprise,.. . excusable
neglect[,] . . . newly discovered evidence[,] . . . fraud
. . ., misrepresentation, or misconduct”; that “the
judgment is void” or “has been satisfied”; or “any other
reason that justifies relief.” Fed. R. Civ. P. 60(b).
Mr. Edokobi has not demonstrated that any of
these circumstances apply here. Hife motion asserts,
without support, that my ruling on his motion for leave
to reply to the Defendants’ amended answers violated
his constitutional and legal rights. See Mot. for
Recons. Nowhere, though, does he specifically identify
any errors of law in my order. Nor could he, as my
ruling was entirely consistent with the Federal Rules
of Civil Procedure and therefore violated no “right” of
Mr. Edokobi’s, whether constitutional or procedural.
My April 23, 2019 letter order explained why a
reply was unwarranted under the circumstances of this
case. To summarize, “[tlhe Federal Rules of Civil Pro­
cedure limit the pleadings allowed in a federal case.”
Hoffv. Nicolaus, No. 11-3601, 2012 WL 1965456, at *2
(D. Md. 2012). Under Rule 7(a), a party may file a
reply to an answer only “if the court orders one.” Fed.
R. Civ. P. 7(a); see United States v. Clayton, 465 B.R.
72, 81 (M.D.N.C. 2011); Garner v. Morales, 237 F.R.D.
399, 400 (S.D. Tex. 2006). Generally; unless a defend­
ant’s answer includes a counterclaim,! a reply will be
unnecessary because the Federal Rules require courts
to treat allegations raised in an answer as though they

\

' 4

\

1 One of the defendants in this case, SunTrust Bank, has in fact
filed a counterclaim. See ECF No. 15. It did so, though, in a sep­
arate pleading, rather than as a part of its answer or amended
answer. And I note, in any event, that iny April 23, 2019 letter
order authorized Mr. Edokobi to file an answer to SunTrust’s
counterclaim. See Apr. 23,, 2019 Ltr. Order.

"s

-1

•

App.35a
"\

had been denied. See Fed. R. Civ. P. 8(b)(6). In other
words, an answer that is not accompanied by a counter­
claim (as is the case here) alleges no claims against
Mr. Edokobi that require a response. And, as the
above cited cases make clear, any allegations con­
tained in the answers to which Mr. Edokobi wants to
respond are treated as if they had been denied. See
Uhde v. Bitsky, No. 03-C-323-C, 2003 WL 23315778,
at *1 (W.D. Wis. Sept. 24, 2003) (“Fed. R. Civ. P. 7(a)
forbids a plaintiff to submit a reply to an answer
unless the court directs a reply to be filed. No such
order has been made in this case. Plaintiff should be
aware, however, that he is not prejudiced by Rule 7
(a). Fed. R. Civ. P. 8(a) provides that a party is deemed
to deny averments in pleadings to which a response is
not allowed. Therefore, although plaintiff is not per­
mitted to respond to defendants’ answer, the court
considers that he has denied the factual statements
and affirmative defenses raised in that answer.”).
Moreover, as my letter order also explained, a reply to
a defendant’s answer is unlikely to be of value because
any factual inaccuracies that may be contained in an
answer are better addressed through the pretrial dis­
covery process. See Apr. 23, 2019 Ltr. Order (citing
Johnson v. Balt. City Police Dept, No. WDQ-12-646,
2013 WL 1833021, at *3 (D. Md. Apr. 30, 2013)).
Mr. Edokobi’s sense of aggrievement appears to
derive from his mistaken belief that other judges in
this Court have granted him the opportunity to file a
reply to a defendant’s answer, whereas I have not. By
way of example, ort page two of his motion for recon­
sideration, he contrasts my order with orders issued
in another case he has filed in this court, Edokobi v.
U.S. Department of Justice, No. TDC-17-3639. To

App.36a

prove his point, Mr. Edokobi has attached these
orders as exhibits to his motion. The first is an April
1, 201.9 order in which Judge Cnuang authorized Mr.
Edokobi to file a response to the defendants’ motion to
dismiss. See ECF No. 38-1. The second is an April 11,
2019 letter from the Clerk of the Court which si milarly
notified Mr. Edokobi that he has a “right” to file a
response to the defendants’ motion to dismiss (or,
alternatively, for summary judgment). See ECF No.
38-2.
Mr. Edokobi is mistaken, and his arguments are
without merit. While Judge Chuang’s orders in Edokobi
v. U.S. Department ofJustice each authorized him to
file a “response” to a defense filing, that filing was a
motion, not an answer, and Mr. Edokobi has overlooked
the critical difference between the two. A motion is a
request for the court to issue an order, ’And it must
state with particularity the grounds for the order, as
well as the specific relief sought. Fed. R. Civ. P.
7(b)(1). Thus, by its very nature, a defense motion
asks the court to issue an order that may affect the
plaintiffs rights, and for that very reason the Local
Rules of this Court recognize that the party against
whom a motion was filed will have an opportunity to
respond to the motion “[ulnless otherwise ordered by
the Court.” Loc. R, 105.2.a. In sharp contrast, as ex­
plained above, a defendant’s answer to a plaintiffs
complaint is a pleading—not a motion. And where it
asserts no counterclaim,, it is not a filing requiring a
reply. That is exactly, why the rules do not permit one
unless the court, exercising its discretion, orders one
to be filed. I have already explained why permitting a
reply to the defendant’s answer was not warranted in

\

App.37a

this case, and why Mr. Edokobi was not entitled to the
relief that he sought.
For these reasons, Mr. Edokobi’s motion for
reconsideration (ECF No. 38) is denied.

\

C.
There is another point that must be addressed
here. It concerns Mr. Edokobi’s threats to sue me
(again) if I refuse to grant his motion, as I now have
done. Over the past few weeks, Mr. Edokobi’s filings
in this case have included several such threats. The
first in this series can be found in his motion for recon­
sideration, in which he states:
9. Plaintiff by this Motion asserts that;
Plaintiff will take these Actions; if Judge
Grimm Refuses to Reconsider His Order
Denying Plaintiffs Leave of the Court to File
Responses to TMCC and SunTrust’s Amended
Answers to Plaintiffs'Complaint.
10. That Plaintiff will file a legal action
against Judge Grimm.
14. Plaintiff by this Motion asserts that; it
is Plaintiffs Conviction that; Plaintiff will
file two or more legal actions against Judge
Grimm because, Judge Grimm Mistreats
Plaintiff by Denying Plaintiff s Equal Protec­
tion Rights; and that; Plaintiff will continue
to file Civil Actions against Judge Grimm
until Plaintiff receives equal treatments.

\

:

App.38a

Mot. for Recons. 2 (emphasis added). Mr. Edokobi
included identical threats in his May 10, 2019 “objec­
tion” to Chief Judge Bredar’s April 9, 2019 letter ex­
plaining that the chief judge lacks authority over his
case. See Objection 6, ECF No. 40. The same threats
also appeared in a motion for reconsideration Mr. Edo­
kobi filed on May 3, 2019 in another case before me.
See Mot. for Recons. 2, Edokobi v. SunTrust, No. PWG19-1071 (D. Md. May 3, 2019), ECF No. 19.
The bedrock of the legal system of this country is
that the courts must be open to the public as a place
to bring legitimate disputes for resolution. Access to
the courts is not restricted to those who are represented
by counsel, and unrepresented individuals like Mr.
Edokobi enjoy the privilege of being able to file civil
actions without counsel. But with that privilege comes
responsibility: to follow the rules of procedure and
local rules of the court; to comply with court orders;
and to comport oneself in the cases one files in the same
manner expected of parties represented by counsel.
That means, here, that Mr. Edokobi may not bring or
maintain actions in bad faith, or without a legal or
factual basis. See Fed. R. Civ. P. 11(b). It likewise
means that in his dealings with opposing parties,
counsel, and the Court, he is obligated to be professional
and civil. Those who employ tactics that interfere with
the proper functioning of the legal system abuse it and
properly are subject to sanctions, including contempt
of court. *SeeFed. R. Civ. P. 11(c)(1).
Mr. Edokobi s threats to file additional lawsuits
against me if his motion for reconsideration is not
granted constitute a gross abuse of the civil justice
system he seeks to employ to resolve his claims
against the defendants in this case. This is especially

App.39a
so because Mr. Edokobi well knows that judges are
entitled to immunity from suit in the performance of
their judicial functions, having been informed of this in
Edokobi v. Motz, No. DKC-13-3378, 2013 WL 6713290,
at *2 (D. Md. Dec. 18, 2013). There, in dismissing a
complaint Mr. Edokobi had filed against another judge
of this Court, Judge Chasanow informed him:

\

It is well-settled law that judges are entitled
to immunity to suit in the performance of their
judicial functions. The doctrine of judicial
immunity is founded upon the premise that
a judge, in performing his or her judicial
duties, should be free to act upon his or con­
victions without threat of suit for damage.
Therefore, a judge is absolutely immune from
liability for his or her judicial acts even if his
or her exercise of authority is flawed by the
commission of grave procedural errors. Fur­
ther, judicial immunity shields from suit, not
just from assessment of damage.
Id. (internal citations and quotation marks omitted).
A litigant who, with knowledge of the doctrine of judi­
cial immunity, nevertheless threatens to file suit
against a judge presiding over a case that he has
brought based upon rulings made by that judge in the
performance of his or her judicial duties is acting in
bad faith, and with an improper purpose. This is a
clear violation of Fed. R. Civ. P. 11(b)(1) and may
result in the imposition of sanctions pursuant to Fed.
R. Civ. P. 11(c). See Sevier v. Hickenlooper, No. 171750-WJM-NYW, 2017 WL 4337990, at *4 (D. Colo.
Sept. 29, 2017) (cautioning that continued ad hominem
attacks, insults, and threats against a magistrate
judge “will not be tolerated” and may result in

!

App.40a
sanctions, “including being held in contempt of Court”);
Engle v. Collins, No. 09-451, 2012 WL 5342493 (S.D.
Ohio Oct. 29, 2012) (reminding a plaintiff who threat­
ened to sue the judge “that his pro se status will not
shield him from sanctions under Fed. R. Civ. P. 11”),
report and recommendation adopted, 2013 WL 866476
(S.D. Ohio Mar. 7, 2013). Mr. Edokobi’s threats are
contemptuous in tone and menacing in content, and—
given the lack of merit in both his motion for reconsid­
eration and his threats to file lawsuits against the
undersigned if it is not granted, notwithstanding his
knowledge that judges are immune to such suits—I
cannot view the motion as having been filed in good
faith. Mr. Edokobi is warned: any further threats
relating to this Court’s rulings will prompt me to issue
an order to show cause why he should not be sanctioned
pursuant to Fed. R. Civ, P. 11(c). See Fed. R. Civ. P.
11(c); Davis v. Kvalheim, No. 07-566-Orl-31KRS, 2007
WL 1602369, at *2 (M.D. Fla. June 1, 2007) (warning
a vexatious litigant who sued the judge that “further
frivolous and abusive filings” would result in sanctions).
Possible sanctions may include a finding of contempt
or the dismissal with prejudice of his claims in this
suit. See Barnett v. Hall, Estill, Hardwick, Gable.
Golden & Nelson, P.C., No. 18-64-TCK-FHM, 2018
WL 3023094, at *3 (N.D. Okla June 18, 2018); Sevier,
2017 WL 4337990, at *4.
D.
There is a final matter that must be addressed in
this Order. As discussed in my April 15, 2019 letter
order, Mr. Edokobi’s dissatisfaction with my adminis­
tration of this case prompted him both to file suit against

■

t •

i

App.41a

me in the Circuit Court for Montgomery Country 2 and
to file a motion in this Court seeking my recusal on
the basis of that suit. ECF No. 34. Among the reasons
I denied that motion, all of which are detailed in the
letter order, one bears repeating: if judges routinely
disqualified themselves when a disgruntled litigant
sued them based on actions taken in the performance
of their judicial duties, this would permit (or even
encourage) vexatious litigants to try to manipulate
and abuse the judicial system by manufacturing an
appearance of partiality or bias. Here, given Mr. Edokobi’s current threats to initiate additional suits
against me in connection with my rulings in this case,
I feel it is appropriate again to explain why recusal
remains unwarranted. In this regar.d, I am informed
by Advisory Opinion 103 of the Federal Judicial Con­
ference Committee on Codes of Conduct. Pursuant to
this guidance, titled “Disqualification Based on Haras­
sing Claims Against Judge,” a judge is not auto­
matically disqualified from participating in a case
brought by a litigant who has filed a lawsuit against
the judge (so long as the case in which the judge has
been sued is not assigned to the judge who was sued)
because
(judicial immunity usually will be a complete
defense against a new complaint of this nature,
and the court in which the complaint is filed
likely will dismiss it as frivolous. In such cir­
cumstances, the mere fact that a litigant has
filed a new frivolous complaint against a
judge based on the judge’s official actions
2 That suit has since been removed to this Court and is pending
before another judge of this Court. See Edokobi v. Grimm, No.
GJH-19-905.
, ,

\

App.42a

will not disqualify the judge from continuing
to preside over the earlier, unrelated matter
brought by the same litigant. The same holds
true when a litigant who previously filed a
complaint naming a judge subsequently files
an unrelated case against others that is
assigned to the named judge.

\

... A complaint filed against a judge that is
subject to prompt dismissal on judicial immu­
nity grounds will not ordinarily give rise to a
reasonable basis to question the judge’s
impartiality in unrelated cases filed against
others by the same litigant. Such a nomneritorious complaint, standing alone, will not
lead reasonable minds to conclude that the
judge is biased against the litigant or that the
judge’s impartiality can reasonably be ques­
tioned, and thus will not require the judge to
recuse.
Committee on Codes of Conduct, Disqualification Based
on Harassing Claims Against Judge. Advisory Opin­
ion No. 103 (June 2009), available at https://www.
uscourts.gov/sites/default/files/guide-vol02b-ch02-2019_
final.pdf.
The suit that Mr. Edokobi has brought against
me clearly relates to my performance of my official
duties as a judge, and his threats to file additional
suits against me clearly relate to his disagreement
with rulings that I have made against him in this
case, again in my official capacity as the presiding
judge. Therefore, as Mr. Edokobi himself knows fully
well from his prior iawsuit against Judge Motz of this
Court, which was dismissed on the basis of absolute
judicial immunity, his current suit and threatened

•\

App.43a

future suits are likewise subject to prompt dismissal
under that same doctrine. Thus, as Advisory Opinion
No. 103 makes clear, under these circumstances, his
nonmeritorious current and threatened future suits
“will not lead reasonable minds to conclude” that I am
biased. Id. For that reason, upon careful reexamina­
tion, I have determined that there continues to be no
legitimate basis for me to recuse myself from this case.
ORDER
For the reasons stated above, it is, this 24th day
of May, 2019, hereby ORDERED that:
1.

Plaintiff Emmanuel Edokobi’s Motion for
Reconsideration (EOF No. 38) IS DENIED;
and

2.

Plaintiff IS CAUTIONED that any further
threats directed toward the Court will be
subject to the imposition of sanctions, which
may include a finding of contempt or the dis­
missal with prejudice of his claims in this suit.

3.

Plaintiffs threats to bring additional lawsuits
against me do not constitute grounds for my
recusal.

/s/

Paul W. Grimm
United States District Judge

App.44a
LETTER ORDER DENYING PLAINTIFFS
MOTION TO REASSIGN THE CASE
(APRIL 15, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
RE: Edokobi v. Toyota Motor Credit Corp. et al.
8:19-cv-00248-PWG

\

Dear Counsel and Mr. Edokobi:
This case was assigned to me on January 28,
2019. Its life since then, though short, has been event­
ful, with Plaintiff Emmanuel Edokobi repeatedly
attempting to circumvent my authority over the case.
In the course of just a few weeks, Plaintiff has filed an
interlocutory appeal to the Fourth Circuit, see ECF
No. 21; sued me in state court; and filed a motion to
remove me from this case, see Mot. for Removal, ECF
No. 32. The interlocutory appeal ended in a voluntary
dismissal, see ECF No. 27, but both the lawsuit
against me and the motion for my removal remain
pending.
Plaintiffs argument for reassigning this case to a
different judge is that I “cannot in good conscience
provide an unbiased decision” because of his pending
lawsuit against me (which, I note, has since been
removed to this Court and is now before a different
judge). Mot. for Removal 5. Plaintiff insists that he
“will not participate” in the proceedings before me
unless and until the case is reassigned. Id. 4.

\

App.45a

Fe deral law requir es a'district court-judge to “dis^_
qualify himself in any proceeding in which his impar­
tiality might reasonably be questioned.” 28 U.S.C. §
455. In the Fourth Circuit, the test of impartiality is
objective: the question, generally, is whether “a rea­
sonable person would have a reasonable basis for ques­
tioning the judge’s impartiality, not whether the judge
is in fact impartial.” United States v. Cherry, 330 F.3d
658, 665 (4th Cir. 2003).
In circumstances where litigation between a
judge and a litigant was entirely unrelated to the
judge’s performance of his judicial duties, then a rea­
sonable person might well have a reasonable basis for
questioning that judge’s impartiality to rule on the
litigant’s suit against other parties, if assigned to the
judge involved in separate litigation with the plaintiff.
But that is not the situation at hand. Here, there were
no grounds for seeking my disqualification when
Defendants removed Plaintiffs state court complaint
to this court. The grounds for Plaintiffs recusal
motion did not arise until a few weeks later, and it
was Plaintiffs own actions - in filing his suit against
me - that created them.
Federal courts have tended to eye circumstances
like these warily, and with good reason. As the
Seventh Circuit has noted, a per se rule requiring a
judge’s recusal “would allow litigants to judge shop by
filing a suit against the presiding judge.” In re Taylor,
417 F.3d 649, 652 (7th Cir. 2005). It is for this reason,
chiefly, that there “is no rule that requires a judge to
recuse himself from a case, civil or criminal, simply
because he was or is involved in litigation with one of
the parties.” Taylor, 417 F.3d at 652; see also United
States v. Watford, 692 F. App’x 108, 110 n.l (4th Cir.

T

-\

App.46a

2017); Azubuko v. Royal\ 443 F.3d 302, 304 (3d Cir.
2006); In re Hipp, 5 F.3d 109, 116-17 (5th Cir. 1993).
It has been noted that the prospect of judicial bias
is especially remote when the suit against the judge is
“meritless.” Taylor, 417 F.3d at 652. While it will be
up to the judge assigned Plaintiff s suit against me to
rule on its merits, I observe that it is based on my per­
formance of my official duties in connection with a
case Plaintiff had previously filed in this court. See
Edokobi v. M & M Mortg. Servs. Inc., 13-3707-PWG.
In that case, I dismissed Plaintiffs claims, he appealed,
and the Fourth Circuit affirmed the judgment. See M
& M Mortg, 13-3707-PWG (D. Md. 2014), ECF Nos.
19, 20, 26. At the very least, then, the merits of Plain­
tiffs suit against me are highly questionable. And be­
cause the suit explicitly concerns actions taken in the
performance of my official duties as a judge, the
doctrine of judicial immunity is plainly implicated.
See Mireles v. Waco, 502 U.S. 9, 11 (1991); Chu v.
Griffith, 771 F.2d 79, 81 (4th Cir. 1985). Were I to
grant Plaintiffs recusal motion under these condi­
tions, it would permit him to engage in the exact type
of forum shopping that the above-referenced cases
condemned.
Finally, with respect to the Plaintiffs ultimatum
that he “will not participate” in this case unless and
until it is “assigned to a different Judge,” Mot. for
Removal If 4, that is his choice to make. But should he
fail to respond'to motions filed by the Defendants or
to comply with court orders, then he runs the risk of
his case being dismissed.
For all of these reasons, Plaintiffs motion to
reassign the case to another judge (ECF No. 32) is

App.47a
denied. This Court’s Scheduling Order (EOF No. 13)
•remains in effect, and the case will proceed.
Although informal, this is an Order of the Court
and shall be docketed as such.
\

Sincerely,
/s/
Paul W. Grimm
United States District Judge

App.48a

\

LETTER ORDER OF THE DISTRICT COURT
OF MARYLAND PROVIDING MATERIAL
SUPPORT TO RESPONDENTS
(MARCH 20, 2019)UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
RE: Edokobi v. Toyota Motor Credit Corp. et al.
8:19-cv-00248-PWG
Dear Counsel and Mr. Edokobi:
This letter order addresses two filings Plaintiff
Emmanuel Edokobi has submitted in this case. Each
filing is styled, somewhat confusingly, as “response
motion in opposition” to an answer filed by one of the
two defendants in this case, Toyota Motor Credit
Corp. (“TMCC”) and SunTrust Bank. See ECF No. 17
(purporting to “respond” to TMCC’s answer); ECF No.
18 (purporting to “respond” to SunTrust’s answer). Each
also contains a motion to strike the defendant’s
affirmative defenses or, alternatively, a motion for a
more definite statement.
Plaintiff s filings appear to assume that Defendants
are seeking to dismiss his Complaint pursuant to Rule
12(b)(6) of the Federal Rules of Civil Procedure. To be
clear, though, Defendants have not filed a motion to
dismiss the Complaint. 1 That being the case, the port­
ions of Plaintiffs filings that purport to respond in
opposition to such a motion are, at best, premature.
11 do note that TMCC’s answer concludes with a one-sentence
request “that the court dismiss the Complaint with prejudice
and/or enter judgment in [Defendants’] favor,” but this sort of

\

App.49a

Turning to Plaintiffs motions to strike Defendants’
affirmative defenses, or, alternatively, for a more
definite statement, I note that these motions do not
comply with the pre-motion procedure I outlined in
my January 29, 2019 letter order. ECF No. 6. That
order requires any party wishing to file a substantive
motion to first “serve on all parties and file with the
Court a letter (not to exceed three pages, single
spaced) containing a brief description of the planned
motion and a concise summary of the factual and legal
support for it.” Id. I will overlook Plaintiffs noncom­
pliance in this instance only , but I caution the parties
to review the pre-motion procedure. I expect their full
compliance with the procedure as the case moves for­
ward; failure to do so will result in the striking of the
filing without further notice.
PlaintifPs grievance with the Defendants’ answers,
it seems, is that they each list 10 or more affirmative
defenses - many of which, he contends, are inapplicable
to the legal issues in this case. His motions urge me to
strike these affirmative defenses or, alternatively, re­
quire Defendants to elaborate on their applicability in
this case.
It is true that Rule 12(f) of the Federal Rules of
Civil Procedure authorizes courts to strike an “insuf­
ficient defense” from a pleading. See Fed. R. Civ. P. 12
boilerplate plea for a dismissal — not uncommon in answers to
complaints in federal court — does not qualify as a motion to
dismiss and will not be treated as such here. See Loc. R. 105.1
(“Any motion. . . shall be filed with the Clerk and be
accompanied by a memorandum setting forth the reasoning and
authorities in support of it.”); see also Crosky v. Ohio Dep’t of
Rehab. & Corr., No. 09-400, 2010 WL 3061816, at *2 (S.D: Ohio
Aug. 3, 2010).

/

App.50a
(£). It is equally true, though,~thaC“Rule 12(f) motions---- ----- are generally viewed with disfavor ‘because striking a
portion of a pleading is a drastic remedy and because
it is often sought by the movant simply as a dilatory
tactic.’” Waste Mgmt. Holdings, Inc. v. Gilmore, 252
F.3d 316, 347 (4th Cir. 2001) (quoting 5A A. Charles
Alan Wright & Arthur R. Miller, Federal Practice &
Procedure § 1380, 647 (2d ed. 1990)); see Farrell v.
Pike, 342 F. Supp. 2d 433, 441 (M.D.N.C. 2004) (“[A]
Rule 12(£) motion to strike pleadings should be reserved
for egregious violations.”). “The decision whether to
strike an affirmative defense is discretionary and
courts generally refrain from striking affirmative
defenses absent a showing that not doing so would
unfairly prejudice the movant.” Lockheed Martin
Corp. v. United States, 973 F. Supp. 2d 591, 592 (D.
Md. 2013); see Baron v. Directv, 233 F. Supp. 3d 441,
443-44 (D. Md. 2017) (“[Cjourts generally refrain from
striking affirmative defenses in the absence of a
showing that by not doing so, the movant would be
unfairly prejudiced.”).

-

Plaintiffs motions, though considerably longer
than Defendants’ pleadings, are nearly as conclusory
as the lists of affirmative defenses he urges me to
strike. To cite just a few examples, he argues TMCC’s
waiver defense should be struck because “there is no
Waiver,” its illegality defense because “there is no
Illegality,” its lathes defense because “there are no
Laches,” and its statute-of-limitations defense” because
“there are [sic] no. Statute of Limitations.” Resp. to
TMCC Answer ^ 64-67, ECF No. 17. While it may
well be that some of the listed affirmative defenses

I

App.51a

were mere “boilerplate,”2 see Cincinnati Ins. Co. v.
Kreager Bros. Excavating. Inc., No. 12-470JD-APR,
2013 WL 3147371, at *2 (N.D. Ind. June 18, 2013),
Plaintiffhas not shown that is the case. More critically,
he has not explained how the lists of affirmative
defenses subject him to unfair prejudice - particularly
as Plaintiff may seek discovery from Defendants as to
the factual basis supporting their affirmative
defenses, and, should they be lacking, they are subject
to a motion for summary judgment to eliminate them
from the case. See Sprint Nextel Corp. v. Simple Cell,
Inc., No. CCB-13-617, 2013 WL 3776933, at *9 (D. Md.
July 17, 2013). Accordingly, his motion to strike is
denied.
Similarly, while I can appreciate Plaintiffs desire
to press Defendants to explain the applicability of the
listed defenses, I am denying his motions for a more
definite statement. Rule 12(e) authorizes parties to
“move for a more definite statement of a pleading to
which a responsive pleading is allowed.” Fed. R. Civ.
P. 12(e) (emphasis added). Rule 12(e) motions are
more typically filed by a defendant who wants to re­
quire a plaintiff to expand on the factual allegations in
a complaint. Here, though, it is the plaintiff who seeks
to force the defendants to bolster their answers. This
2 As a practical matter, it is understandable that Defendants
would want to cover their bases in this case, given that Plaintiff
has asserted no less than 30 claims. See Compl., ECF No. 2. That
said, in submitting an answer, defense counsel certifies that “to
the best of the person’s knowledge, information, and belief, formed
after an inquiry: reasonable under the circumstances,” the
asserted defenses “are warranted by existing ,law or by a
nonfrivolous argument.” Fed. R. Civ. P. 11(b)(2). If, after discovery,
it becomes clear that the asserted defenses are patently untenable,
counsel may be subjected tci sanctions.

/

V

App.52a

might be permissible if, under Rule 7(a)(7), I bad
ordered Plaintiff to file a reply to Defendants’ answer,
but I have not taken that step here. That being the
case, neither of Defendants’ answers constitutes “a
pleading to which a responsive pleading is allowed,”
and so Rule 12(e) does not apply.

/

With all of that said, Defendants should not
assume that 1 consider their answers (ECF Nos. 7, 8)
satisfactory. Rule 8(b) requires defendants to “admit
or deny the allegations” in a complaint. See Fed. R.
Civ. P. 8(b)(1)(B). It further states that a denial “must
fairly respond to the substance of the allegation.” Fed. R.
Civ. P. 8(b)(2). While the Federal Rules do permit gen­
eral denials of the sort Defendants have filed here,
these are acceptable only in “extremely rare” circum­
stances. Farrell, 342 F. Supp. 2d at 441.
Rule 8(b)(3) authorizes general denials where the
defendant “intends in good faith to deny all the alle­
gations of a pleading—including the jurisdictional
grounds.” Fed. R. Civ. P. 8(b)(3) (emphasis added).
Here, Plaintiffs Complaint runs 35 pages and contains
283 numbered paragraphs. If even one of those para­
graphs is accurate, then the proper response would be
to specifically admit that allegation. See id. (“A party
that does not intend to deny all the allegations must
either specifically deny designated allegations or gen­
erally deny all except those specifically admitted.”).

!

An answer should indicate exactly which of the
asserted facts in a complaint are in dispute, both for
the plaintiffs benefit and for the court’s. Unless
Defendants are prepared to attest, in good faith, that
every single statement of fact in Plaintiffs 35-page
Complaint is false, their answers cannot be said to
comply with the Federal Rules. Accordingly, I am

C

i
i

/

App.53a

/

ordering Defendants to file amended answers that
properly respond to Plaintiffs allegations, in compliance
with Rule 8(b). See Fed. R. Civ. P. 1. They shall do so
not later than April 5, 2019.
Moving forward, my Scheduling Order and Dis­
covery Order remain in effect. See ECF Nos. 13, 14.
The discovery process is under way. Defendants, for
now, retain the option of filing a pre-motion letter
notifying the Court of their intent to seek a judgment
on the pleadings under Rule 12(c), should they wish to
take that step.
Although informal, this is an Order of the Court
and shall be docketed as such.
Sincerely,

j

/si

Paul W. Grimm
United States District Judge

j

App.54a
LETTER ORDER
REGARDING THE FILING OF MOTIONS
(JANUARY 29, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
RE: Edokobi v. Toyota Motor Credit Corp. et al.
8:19-cv-00248-P WG
In order to promote the just, speedy, and
inexpensive resolution of this case, see Fed. R. Civ. P.
1, the following procedure will be followed with
respect to the filing of substantive motions (such as
motions to dismiss, to amend the pleadings, or case
dispositive motions); discovery motions (such as motions
to compel, motions for a protective order, or motions
seeking the imposition of sanctions); and post-judgment
motions or other motions following dismissal of the
case (such as motions for attorneys fees, motions for
reconsideration, and motions to reopen). Any party
wishing to file a motion first will serve on all parties
and file with the Court a letter (not to exceed three
pages, single spaced) containing a brief description of
the planned motion and a concise summary of the
factual and legal support for it. If the intended motion
is a discovery motion, counsel shall confer with one
another concerning the dispute and make good faith
attempts to resolve the differences between them
before filing the letter regarding the dispute, and the
party filing the letter also shall file a certificate that
complies with Local Rule 104.7. Unless I notify you
otherwise, no response to the letter should be filed. I
will review the letter and determine whether to

j

!

/

App.55a
schedule an expedited telephone conference " (usually
within a week) to discuss the requested motion and to
determine whether the issues may be resolved or
otherwise addressed without the need for formal
briefing. Where it would be more efficient simply to
approve the request to file the motion, I will issue an
order directing that the motion may be filed.

/

If a telephone call is scheduled and the issues
raised cannot be resolved during th^t call, I will con­
sult with you to set a reasonable briefing schedule. If
the letter described above is filed within the time
allowed by the Federal Rules of Civil Procedure, Local
Rules of Court, or any order issued by me in which to
file the motion that the letter addresses, the time for
fifing the motion will be tolled to permit the
scheduling of the telephone conference without the
need to request an extension of time.
Although informal, this is an Order of the Court
and shall be docketed as such.
/s/
Paul W. Grimm
United States District Judge

/

Additional material
from this filing is
available in the
Clerk's Office.

